UNITED STATES OF AMERICA
FEDERAL TRADE COMMISSION
WASHINGTON, D.C. 20580

 

Bureau of Consumer Protection
Division of Enforcement
Hampton Newsome
Direct Dial: (202)326-2889
Fax: (202) 326-2558
Email: bnewsome@fte.gov

April 15, 2013

Via Email

Aniruddh Roy

Regulatory Engineer

Air-Conditioning, Heating, and Refrigeration Institute
2111 Wilson Boulevard, Suite 500

Arlington, VA 22201-3001

Dear Mr. Roy:

In a March 28, 2013 letter to the Commission, you requested guidance on three issues
related to the FT'C’s recent amendments for online energy disclosures (78 Fed. Reg. 2200 (Jan.
10, 2013))." Those amendments require manufacturers to make their EnergyGuide labels
available online by July 15,2013. First, according to your letter, AHRI plans to post its
members’ labels on the AHRI website to facilitate their compliance with this new requirement.
Second, for split-system air conditioners, AHRI plans to include a disclaimer box on the online
labels directing consumers to a copy of the AHRI certification containing the ratings for specific
condenser-evaporator coil combinations. Finally, you have asked whether manufacturers selling
products from their website may comply with section 305.20 of the Rule by linking to the AHRI
website.

In response to your inquiry, the FTC staff has no objection to AHRI’s plan to place its
members’ EnergyGuide labels on its website. The new rule (16 C.F.R. 305.6) states that
manufacturers “must make a copy of the label available on a publicly accessible website in a
manner that allows catalog sellers to hyperlink to the label or download it.” It does not mandate
that such websites belong to the manufacturer. Second, with regard to your proposal for a split-
system air conditioner label disclosure, AHRI should not place such disclaimers on the label
itself. Although nothing prohibits a disclaimer about split-system unit ratings on your website,
the Rule does not allow the inclusion of additional disclaimers on the label (see, e.g., 16 C.F.R.

' Your letter also requests changes to the recently announced requirements for the inclusion of
capacity information on heating and cooling equipment labels (78 Fed. Reg. 8362 (Feb. 5,
2013)). The FTC staff plans to address those rulemaking issues in a later proceeding.
Page 2

305.12(f)(8)). Because online retailers (i.¢., catalog sellers) are likely to post the labels on their
own sites to meet Rule’s retailer requirements, a disclaimer about an AHRI certificate may be
confusing to consumers viewing the labels on such retail sites. Accordingly, we urge you to
include such information in a location other than the label itself. Finally, manufacturers offering
their products for sale on websites can link to the AHRI website using the EnergyGuide icon
required by the Rule, as long as the link takes the consumer directly to the label.

The views expressed in this letter are those of the staff assigned to enforce the
Commission’s Energy Labeling Rule (16 C.F.R. Part 305). In accordance with Section 1.3(c) of
the Commission’s Rules of Practice and Procedure, 16 C.F.R. § 1.3(c), this is a staff opinion only
and has not been reviewed or approved by the Commission or by an individual Commissioner. It
is not binding upon the Commission and is given without prejudice to the right of the
Commission later to rescind the advice and, when appropriate, to commence an enforcement
proceeding. In conformance with Section 1.4 of the Commission’s Rules of Practice, 16 C.F.R.

§ 1.4, this letter is being placed on the public record. If you have any further questions, please

contact me at (202) 326-2889.
Sincerely,
Hampton Newsome

Attorney
